Office of Inspector General



   Evaluation of the FMC’s Compliance
      with the Federal Information
    Security Management Act FY 2012

                A13-03




           December 2012



FEDERAL MARITIME COMMISSION
                                   FEDERAL MARITIME COMMISSION
                                        Washington, DC  20573 



                                       December 21, 2012

Office of Inspector General 




Dear Chairman Lidinsky and Commissioners:

The Office of Inspector General (OIG) submits its report on the status of information security at
the Federal Maritime Commission (FMC) for FY 2012. The OIG relied on the expertise of
information security evaluators from Your Internal Controls LLC, for assistance on this
mandated review.

The objectives of the independent evaluation of the FMC’s information security program were to
evaluate its security posture by assessing compliance with the Federal Information Security
Management Act (FISMA) and related information security policies, procedures, standards, and
guidelines. The scope of this task included the FMC Network, and applications housing service
contracts (SERVCON) tariff location filings (Form-1) and FMC license applications (Form-18).
The OIG also performed a network scan to identify potential system vulnerabilities and assessed
management actions to implement prior-year recommendations.

The FY 2012 report contains two new subject matter findings and two recommendations for
corrective action. Scan results were provided to Office of Information Technology (OIT)
network staff as soon as results were know to enable them to make needed adjustments. I am
glad to report that no serious vulnerabilities were found.

The OIG thanks FMC staff, especially the OIT, for its assistance in helping us to meet our report
objectives.

Respectfully Submitted,




/Adam R. Trzeciak/
Inspector General
                                                      TABLE OF CONTENTS


PURPOSE ....................................................................................................................................... 1 

BACKGROUND ............................................................................................................................ 1 

SCOPE AND METHODOLOGY .................................................................................................. 1 

CURRENT YEAR FINDINGS ...................................................................................................... 2 

MANAGEMENT RESPONSES AND PRIOR YEAR FOLLOW UP .......................................... 2 

SYS-01 VULNERABILITY ASSESSMENT RESULTS .............................................................. 3 

PRIOR YEAR RECOMMENDATIONS ....................................................................................... 5 
                                              PURPOSE

Your Internal Controls (contractor), on behalf of the Federal Maritime Commission (FMC),
Office of Inspector General (OIG), conducted an independent evaluation of the quality and
compliance of the FMC’s information security program with applicable federal computer
security laws and regulations. Your Internal Controls’ evaluation focused on FMC’s information
security program as required by the Federal Information Security Management Act (FISMA).
This report was prepared by the contractor with guidance by the Office of Inspector General.

                                          BACKGROUND

On December 17, 2002, the President signed into law H.R. 2458, the E-Government Act of
2002(Public Law 107-347). Title III of the E-Government Act of 2002, commonly referred to as
FISMA, focuses on improving oversight of federal information security programs and facilitating
progress in correcting agency information security weaknesses. FISMA requires federal agencies
to develop, document and implement an agency-wide information security program that provides
security for the information and information systems that support the operations and assets of the
agency. This program includes providing security for information systems provided or managed
by another agency, contractor or other source. FISMA assigns specific responsibilities to agency
heads and Inspectors General (IGs). It is supported by security policy promulgated through the
Office of Management and Budget (OMB), and risk-based standards and guidelines published in
the National Institute of Standards and Technology (NIST), Special Publication (SP) series.

Under FISMA, agency heads are responsible for providing information security protections
commensurate with the risk and magnitude of harm resulting from the unauthorized access, use,
disclosure, disruption, modification or destruction of information and information systems.
FISMA requires agencies to have an annual independent evaluation performed on their
information security programs and practices and to report the evaluation results to OMB. FISMA
states that the independent evaluation is to be performed by the agency IG or an independent
external auditor as determined by the IG. Implementing adequate information security controls is
essential to ensuring an organization can effectively meet its mission.

                                 SCOPE AND METHODOLOGY

The scope of our testing focused on the FMC General Support Systems (GSS) and Major
Applications (MA). We conducted our testing through inquiry of FMC personnel, observation of
activities, inspection of relevant documentation, and the performance of technical security
testing. More specifically, our testing covered a sample of controls as listed in National Institute
of Standards and Technology (NIST) 800-53, Recommended Security Controls for Federal
Information Systems and Organizations, Revision 3. For example, testing covered system
security plans, access controls, risk assessments, configuration management, contingency
planning, security awareness and auditing. Our scope also included a Vulnerability Assessment
for the overall network and workstations that connect to the network.




                                                 1
                                  CURRENT YEAR FINDINGS

During our FY 2012 evaluation, we noted that FMC has taken steps to improve the information
security program and to remediate some prior year deficiencies. For example, the FMC has
increased the size of audit logs and modified the audit log setting to automatically move them to
another storage medium in the event that the audit logs become full. Security awareness training
has been rolled out satisfactorily and this prior year deficiency is now closed. The FMC also re-
categorized one system to comply with Federal Information Processing Standards (FIPS) 199,
Standards for Security Categorization of Federal Information and Information Systems. Lastly,
the agency has finalized Memorandums of Understanding (MOU) between the FMC and external
agencies that communicate with FMC systems to ensure that security between them is meeting or
exceeding FMC security requirements.

The OIG also found areas where improvement is possible. We identified two deficiencies which
we identified in a network scan that pertain to weak server configuration settings and services
running on the network that are not secure.

Based on this review, the OIG closed seven (7) recommendations and clarified to management
what actions it needs to take to close remaining recommendations. The status of all open
recommendations as of the close of fieldwork is identified in Appendix I.

              MANAGEMENT RESPONSES AND PRIOR YEAR FOLLOW UP

We have included management’s response to the OIG recommendation(s) at the end of the
report.   The contractor also reviewed the implementation status of 21 prior year(s)
unimplemented recommendations. Management has taken steps to close seven (7) of the 21
recommendations, which the OIG verified as completed. The OIG was unable to close the
remaining 14 recommendations, due to management’s assertion that correct action had not yet
occurred.




                                               2
                SYS-01 VULNERABILITY ASSESSMENT RESULTS

Condition:

The contractor performed a Vulnerability Assessment utilizing Nessus, a commercial software
tool. This software deployed recent plug-ins, which allowed for the scan to identify the latest
vulnerabilities on both the network (servers, routers, firewalls, etc.) and a sample of desktops
connected to the network. The last vulnerability scan was conducted in 2009. The results of this
scan were as follows:

   1. The servers and workstations were not configured with the latest security patches.
   2. The network and servers were not configured securely. There were agents and outdated
      services running that can be exploited.

Criteria:

   1. NIST 800-40 Procedures for Handling Security Patches, section 2.1 states “We
      recommend creating a "Patch and Vulnerability Group" (PVG). The size of the PVG will
      vary depending on the size and complexity of the organization. The PVG may consist of
      full-or part-time personnel. The personnel involved should have broad knowledge of
      patches, systems administration, and computer vulnerabilities. In addition, it is helpful to
      have specialists in particular operating systems, applications, and servers. Personnel who
      already provide system or network administration functions, perform vulnerability
      scanning or who operate intrusion detection systems are likely candidates for this group.
      The duties of the PVG will be to support local administrators in finding and fixing
      vulnerabilities in the organization’s software. The PVG will generally not patch
      vulnerabilities themselves; rather they will work with a local administrator to apply and
      test patches. Generally speaking, the main function of the PVG groups should be to
      ensure consistency across an organization.”

   2. NIST 800-123 Guide to General Server Security, section 3.3 states “Organizations
      should develop standardized secure configurations for widely used Operating Systems
      (OS) and server software. This will provide recommendations to server and network
      administrators on how to configure their systems securely and ensure consistency and
      compliance with the organizational security policy. Because it only takes one insecurely
      configured host to compromise a network, organizations with a significant number of
      hosts are especially encouraged to apply this recommendation.” Section 4.1 states “Once
      an OS is installed, applying needed patches or upgrades to correct for known
      vulnerabilities is essential. Any known vulnerabilities an OS has should be corrected
      before using it to host a server or otherwise exposing it to untrusted users. To adequately
      detect and correct these vulnerabilities, server administrators should do the following:




                                               3
          o Create, document, and implement a patching process.
          o Identify vulnerabilities and applicable patches.
          o Mitigate vulnerabilities temporarily if needed and if feasible (until patches are
            available, tested, and installed).
          o Install permanent fixes (patches, upgrades, etc.)

   3. NIST 800-123 Guide to General Server Security, section 4.2.2 states “The default
      configuration of the OS often includes guest accounts (with and without passwords),
      administrator or root level accounts, and accounts associated with local and network
      services. The names and passwords for those accounts are well known. Remove
      (whenever possible) or disable unnecessary accounts to eliminate their use by attackers,
      including guest accounts on computers containing sensitive information. For default
      accounts that need to be retained, including guest accounts, severely restrict access to the
      accounts, including changing the names (where possible and particularly for
      administrator or root level accounts) and passwords to be consistent with the
      organizational password policy. Default account names and passwords are commonly
      known in the attacker community.”

   4. NIST 800-123 Guide to General Server Security, section 4.2.2 states “Enabling
      authentication by the host computer involves configuring parts of the OS, firmware, and
      applications on the server, such as the software that implements a network service. In
      special situations, such as high-value/high-risk servers, organizations may also use
      authentication hardware, such as tokens or one-time password devices. Use of
      authentication mechanisms where authentication information is reusable (e.g., passwords)
      and transmitted in the clear over an untrusted network is strongly discouraged because
      the information can be intercepted and used by an attacker to masquerade as an
      authorized user.”

Cause:

The FMC network has undergone recent upgrades and there were time constraints placed on
limited personnel to identify the latest patches and other vulnerability weaknesses.

Risk:

   1. Without updated patches on systems, there is the potential for remote code execution
      through exploitation of buffer overflows, and other vulnerabilities. Patches are deployed
      to close those areas subject to exploitation. Without the latest patches being deployed,
      identified vulnerabilities may be exploited through known attack venues.

   2. Hosts (and web servers) running outdated versions may result in a denial of service or
      other exploitative attacks on the network. Servers and other technologies are built with
      standard default user IDs and passwords so that administrators can configure them.
      Attackers know the default user IDs and passwords; as this is common knowledge. It is

                                               4
       therefore, crucial that those default IDs and passwords be changed to prevent exploitation
       of weak authentication credentials.

Recommendation(s):

   1. Identify which patches are missing and assess which of those can be deployed without
      harming the network. Once complete, deploy the patches to ensure the network is
      protected.

   2. Disable all services running on the hosts that are not being used. If the services are being
      used, then deploy the latest versions, which will provide the latest security protection.
      Also, if FTP is to be deployed on servers, ensure that anonymous access is prohibited and
      secure transmission is required.

                             PRIOR YEAR RECOMMENDATIONS

The following table details all prior year deficiencies identified during our FISMA evaluation.
There are a total of 21 deficiencies identified in the table. Of those 21 deficiencies, seven (7)
have been closed in the current audit period. While all of the deficiencies listed below are
important, some are clearly a priority and should take precedence with regard to remediation.
We’ve determined that deficiency Nos. 3, 6, 13, and 14 are the most critical and should be
remediated as soon as possible.

Deficiency # 3 addresses the review of audit logs. Without reviewing the logs, there may be
negative actions taken against the agency without awareness on the part of OIT. The audit logs
must be reviewed timely and corrective actions (e.g. investigating failed logon attempts) must be
taken as a result of those reviews.

Deficiency # 6 addresses the Contingency Plan. Without a final and signed Contingency Plan,
the agency lacks basic assurances that the agency’s critical functions could proceed during a
catastrophic event without loss or compromise of its data.

Deficiency # 13 addresses password complexity. The current password requirements are not
appropriate and they should adhere to complexity requirements.

Deficiency # 14 identifies C&A package shortcomings for the network and the SERVCON
application. C&A packages document the various security controls, as identified from a security
categorization (FIPS-199). The controls are then tested, and evaluated to ascertain if there are
any risks that would preclude the system from being placed in a live environment. Without
finalized C&A packages, data may not be adequately protected with commensurate security
controls.




                                               5
#                        POA&M                                      Report           Open / Closed
    Evaluate FMC mobile needs and implement FIPS
    140-2 encryption on mobile computers and portable
    devices carrying agency data.
1                                                             Report A2010-02 (#3)      Open
    (OIG estimates the required level of effort for this
    recommendation to be 20 hours).
    From the report generated via the Numara software
    product, identify which patches and service packs can
    be deployed without harming the network. Further,
                                                                                     Closed during
    upon completion, review the configuration settings of
                                                                                     the FY 2012
2   the servers to ensure security settings have not          Report A2012-02 (#1)
                                                                                        FISMA
    changed.
                                                                                      engagement
    (OIG estimates the required level of effort for this
    recommendation to be 40 hours).
    Ensure that audit logs are reviewed monthly and
    necessary actions are taken to respond to those audit
    events generated as a result of adverse actions.
3                                                             Report A2012-02 (#2)      Open
    (OIG estimates the required level of effort for this
    recommendation to be 5 hours per month).
    Set the audit logs to a size that can sustain the logs
    being generated. Also, as the logs fill up, they should
4                                                             Report A2012-02 (#3)      Closed
    be moved to another storage medium so that current
    logs are maintained.
    Ensure only IT personnel and others with a job-
    related need have access to the Data Center by
5                                                             Report A2012-02 (#4)      Open
    reviewing non-OIT personnel access badges and
    disabling as appropriate
    Ensure that the Contingency Plan has been reviewed
    and signed off as final. Also, ensure that OIT
    performs a contingency test, training, and exercise in
6   accordance with NIST 800-34.                              Report A2012-02 (#5)      Open

    (The estimated level of effort for this recommendation
    is 40 hours).
    Ensure that IT personnel are properly trained with
    regard to incident response prevention, detection, and
7                                                             Report A2012-02 (#6)      Open
    correction.


                                                      6
#                           POA&M                                      Report           Open / Closed
     (The estimated level of effort for this recommendation
     is 40 hours per year for each OIT employee with
     incident response responsibilities).
     The FMC should implement formal incident response
     procedures so that in the event of an incident, the
                                                                                        Closed during
     appropriate responses could be taken to minimize any
                                                                                        the FY 2012
8    adverse impact to the agency.                              Report A2012-02 (#7)
                                                                                           FISMA
                                                                                         engagement
     (OIG estimates the required level of effort for this
     recommendation to be 20 hours).
     Implement HSPD-12 in accordance with laws and
     regulations.
9                                                               Report A2012-02 (#8)       Open
     (OIG estimates the required level of effort for this
     recommendation to be 40 hours).
     A system inventory should be maintained and from
     this listing, the following should be performed:

     •   identify which of those systems have PII and IIF.
     •   identify which of those systems need a PIA.
     •   identify which of those PIAs need to be posted on
10                                                              Report A2012-02 (#9)       Open
         the FMC website.
     •   identify information that needs to be redacted
         prior to posting of the PIA on the FMC website.

     (OIG estimates the required level of effort for this
     recommendation to be 20 hours).
     Ensure that IT incorporates the agency's checkout
     process for terminated employees into its access
     procedures and updates access permissions for those
     employees who are promoted or move (i.e., change
     assignments) within the agency. This will ensure that
     IT changes the user access settings appropriately. IT
11                                                              Report A2012-02 (#10)      Open
     should also review access rights on a quarterly basis
     and with other Commission bureaus and offices to
     identify and assess non-FMC personnel access needs
     for other users such as those users that are external to
     the agency.



                                                        7
#                           POA&M                                   Report           Open / Closed
     (OIG estimates the required level of effort for this
     recommendation to be 10 hours).
     Ensure that all agency personnel take Security                                  Closed during
     Awareness Training every year in accordance with                                the FY 2012
12                                                           Report A2012-02 (#11)
     NIST 800-50 and comply with IT Security for                                        FISMA
     Personnel MD 2011-4.                                                             engagement
     Ensure that password complexity is set to "enable"
     and applies to all personnel within the FMC agency.
13                                                           Report A2012-02 (#12)      Open
     (OIG estimates the level of effort for this
     recommendation at 4 hours).
     The Network GSS C&A and the SERVCON C&A
     should be signed and finalized.
14                                                           Report A2012-02 (#13)      Open
     (OIG estimates the level of effort for this
     recommendation at 40 hours).
     The Network GSS and SERVCON System Security
                                                                                     Closed during
     Plans (SSP) should be signed and finalized.
                                                                                     the FY 2012
15                                                           Report A2012-02 (#14)
                                                                                        FISMA
     (OIG estimates the level of effort for this
                                                                                      engagement
     recommendation at 4 hours).
                                                                                     Closed during
     The SERVCON FIPS-199 Security Categorization                                    the FY 2012
16                                                           Report A2012-02 (#15)
     should be a "Moderate" categorization.                                             FISMA
                                                                                      engagement
     All controls in the SSPs should be reviewed to ensure
     their implementation status is correct.
17                                                           Report A2012-02 (#16)      Open
     (OIG estimates the level of effort for this
     recommendation at 40 hours).
     Any weaknesses as a result of STEs should be
     corrected immediately.
18                                                           Report A2012-02 (#17)      Open
     (OIG estimates the level of effort for this
     recommendation at 20 hours).
     The FMCDB should be carved out into a separate
     C&A package.
19                                                           Report A2012-02 (#18)      Open
     (OIG estimates the level of effort for this
     recommendation at 40 hours).

                                                     8
#                         POA&M                               Report           Open / Closed
     The SERVCON system should have an e-
     Authentication assessment conducted.
20                                                     Report A2012-02 (#19)      Open
     (OIG estimates the level of effort for this
     recommendation at 2 hours).
                                                                               Closed during
     Develop an MOU for all agencies where external                            the FY 2012
21                                                     Report A2012-02 (#20)
     personnel access the FMC data.                                               FISMA
                                                                                engagement




                                                   9
UNITED STATES GOVERNMENT                                       FEDERAL MARITIME COMMISSION

Memorandum
TO            : Office of the Inspector General              DATE: December 7, 2012



FROM          : Chief Information Officer



THROUGH: /Managing Director/



SUBJECT : Evaluation of the FMC’s Compliance with the Federal Information Security
          Management Act (FISMA) FY 2012

     This is in response to your recently provided FISMA audit draft report.

     Recommendation 1. The OIG recommends that OIT identify which patches are missing
     and assess which of those can be deployed without harming the network. Once complete,
     deploy the patches to ensure the network is protected.

     Response: OIT agrees with the findings of the Inspector general and will follow the
     recommendations set forth in the FY 2012 Evaluation of the FMC’s Compliance with the
     Federal Information System Management Act (FISMA). This is a new finding resulting from
     OIT not being able to use the Patch Manager software that has worked so well in the past. OIT
     is currently in the process of identifying a new server patch deployment technology which will
     be in place by the end of the second quarter of FY 2013.

     Recommendation 2. The OIG recommends that OIT disable all services running on the
     hosts that are not being used. If the services are being used, then deploy the latest
     versions, which will provide the latest security protection. Also, if FTP is to be deployed
     on servers, ensure that anonymous access is prohibited and secure transmission is
     required.

     Response: OIT is in the process of identifying all unnecessary services running on the FMC
     servers and disabling them. Part of this process will be the installation of all of the FMC
     servers into the Xacta IA Manager continuous monitoring suite that employs the following
     standards USGCB/SCAP, FIPS 199, NIST 800-37 (Risk Management Framework), NIST 800-
     53/53A (Security Controls for Federal IS), NIST 800-60 (Guide for Mapping Information
     Systems to Security Categories) which will be completed by the end of the second quarter of
     FY 2013.

                                              /Anthony Haywood/
